No.

 

IN THE

Supreme Court of the United States

DUANE ALLEN SIKES,
Petitioner,

Vv.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
CERTIFICATE OF WORD COUNT
THEREBY CERTIFY, pursuant to Supreme Court Rules 14 and 33, that the
Petition for a Writ of Certiorari as submitted and filed by Petitioner Duane Allen
Sikes complies with the word limitations governing such pleadings filed with the
Court and has 8,458 words, excluding those portions of the petition allowed by rule,

as calculated by Microsoft Word’s word-count platform.
All parties required to be served have been served under this certificate.

Respectfully submitted this 9 day of November, 2020;

  

Research and Writing’ ‘ttorney
lorida Bar-No-0137227
Supreme Court Bar No. 242621
Federal Defender’s Office

201 South Orange Avenue, Suite 300
Orlando, Florida 32801

Telephone (407) 648-6338

email stephen_langs@fd.org
Counsel of Record for Petitioner

   
